NATIONAL CREDIT UNION ADMINISTRATION

      OFFICE OF INSPECTOR GENERAL




             YEAR 2000
        READINESS STATUS OF
       CREDIT UNION VENDORS




      OIG 99-10     December 7, 1999




          _______________________

            FRANK THOMAS
          INSPECTOR GENERAL
                     TABLE OF CONTENTS

                                          PAGE

INTRODUCTION                               1

BACKGROUND                                 1

OBJECTIVES                                 2

SCOPE AND METHODOLOGY                      2


OBSERVATIONS                               4
    NCUA Vendor Reviews                    4
    FFIEC Vendor Reviews                   5
    NCUA Approved Blanket Waivers          5
    Credit Union Quarterly Reports         5

MATTERS FOR CONSIDERATION                  6




                                     ii
                                       Year 2000 Vendor Review




    Introduction         This is the sixth of the Office of Inspector General’s (OIG) series of
                         reports addressing the Year 2000 (Y2K) computer problem as it relates
to the National Credit Union Administration (NCUA) and federally insured credit unions
(FICUs). This report addresses the OIG review of federally insured credit unions’ information
system vendors and their progress and affect on credit union ability to prepare for the year 2000.

Because of the time critical nature of the Y2K problem, and in order to provide the NCUA Board
with timely information, we are not making formal recommendations or asking for a written
response.



     Background             The NCUA supervises 11,019 natural person credit unions 6,799
                            federally chartered and 4,220 state chartered. Approximately 92
percent of these credit unions were identified as using EDP vendor products for core processing
(share and loan systems). In August 1997, NCUA issued a letter to all known Information
System Vendors (primary ISVs) that provide service to credit unions. This letter requested the
vendors to complete a Y2K questionnaire and also mentioned plans to have a vendor conference
in late 1997. On March 20, 1998, the Examination Parity and Year 2000 Readiness for Financial
Institutions Act was enacted giving NCUA and the Office of Thrift Supervision examination
authority over ISVs, similar to other financial institution regulators, to assure the safety and
soundness of the nation’s financial institutions.

Prior to the enactment of the Examination Parity Act, ten ISVs were reviewed by NCUA and its
contractor on a voluntary basis. These ten ISVs served approximately 55 percent of federally
insured credit unions. After the enactment of the Examination Parity Act, NCUA and its
contractor performed an additional 36 ISV reviews. These 46 ISV reviews covered
approximately 86 percent of federally insured credit unions. All of these reviews were of primary
ISVs covering core processing systems (primarily share and loan systems). The scope of the
reviews was to determine the vendors’Y2K process and status to date. The scope was NOT to
certify vendor Y2K compliance. The reports are reviewed by NCUA and provided to the vendor
for comment. Upon finalization of the report, it is distributed to NCUA regional offices, state
supervisory authorities and credit union vendor clients. In addition, an executive summary is
posted on the NCUA website. The first 10 reviews performed were not distributed and not
posted on the NCUA website, since they were not performed under the Examination Parity Act.
These reports were summarized as to their results via an NCUA Letter to Credit Unions.

Other federal financial institution regulators have performed various EDP reviews which relate to
Y2K issues under direction of the Federal Financial Institutions Examination Council (FFIEC).
The federal member agencies, except NCUA, have performed these reviews. Most of these
reviews, as they relate to credit unions, are of third party vendors (third party ISVs such as credit
card processors etc.) Agencies in charge (AIC) perform the reviews and write the reports. The
FFIEC distributes the reports to member agencies, such as NCUA. NCUA reviews the reports


                                                  1
                                       Year 2000 Vendor Review


and distributes the reports, if there is no distribution restriction, to NCUA regional offices, state
supervisory authorities and credit union vendor clients. As of October 13, 1999, 257 FFIEC
reviews had been performed.

The NCUA, in addressing potential Y2K problems in FICU information systems, adopted
milestone dates for natural person and corporate unions to accomplish specific Y2K tasks. The
purpose of the milestone dates was to ensure credit union information systems were ready to
function in a timely manner. Benchmark milestone dates were developed to address awareness,
assessment, renovation, validation/testing, and implementation phases. In early 1998, NCUA
established a policy of providing waivers or extensions to the milestone dates. Waivers and
extensions have been granted for individual credit unions and blanket waivers for some credit
unions with common information system vendors. If credit union remediation efforts were not
performed in a timely manner in accordance with the milestone dates and waivers, the NCUA
could take administrative action against the credit union because of unsafe and unsound practices.
The milestone date for system renovation completion was January 31, 1999, for testing
completion June 30, 1999, for substantially implementation July 31, 1999, and for final
implementation by September 30, 1999. No milestone dates had been established by NCUA for
ISVs. Through October 31, 1999, NCUA had approved blanket waivers on 13 vendors.

Beginning in 1998, NCUA required all credit unions to file a calendar quarterly report with
NCUA. These quarterly reports, essentially, provided the status of the credit union’s critical
systems in the Y2K phases as reported by the credit union. These reports only listed the primary
vendor. These quarterly reports were reviewed by the examiner in charge (NCUA or state),
forwarded to the appropriate NCUA regional office for review and finally forwarded to the Office
of Examination and Insurance (E&I) for review and database establishment. As of September 30,
1999, all credit unions were 100 percent renovated, as reported by the credit unions. And 99.97
percent of all federally insured credit unions were fully implemented, as reported by NCUA.



     Objectives          Our objectives were: (a) to determine the Y2K status of credit union
                         system vendors and (b) to determine what action NCUA was taking to
ensure that vendors are making satisfactory progress in providing renovated systems to its credit
union clients.


 Scope and Methodology            This review was of limited scope and was not performed under
                                  yellow book audit standards. However, we did perform the
following review procedures in meeting our review objectives:

NCUA Primary ISV reviews:

• Reviewed agency guidance regarding ISV vendor reviews
• Interviewed E&I staff regarding vendor review processes, procedures and results
• Reviewed a non-statistical judgmental sample of vendor review reports and executive
  summaries


                                                   2
                                     Year 2000 Vendor Review


• Reviewed postings per NCUA website for vendor reviews

FFIEC ISV reviews:

•   Reviewed NCUA guidance regarding vendor reviews
•   Interviewed E&I staff regarding NCUA review processes, procedures and results
•   Scanned listing of FFIEC reports for noted problem issues
•   Inquired of E&I staff regarding noted FFIEC reports which resulted in unsatisfactory or needs
    improvement ratings

NCUA Approved Blanket Waivers:

• Reviewed agency guidance regarding blanket waivers
• Interviewed E&I staff regarding blanket waiver processes, procedures and reasons for blanket
  waiver issuance
• Reviewed blanket waiver documentation supporting the need for approval

March 31, 1999 Credit Union Quarterly Reports:

• Obtained a listing of 100 percent of credit unions not fully renovated as of March 31, 1999
• Inquired of NCUA regions:
         -Listing of systems not renovated (system type and vendor)
         -Reason for non-renovation
         -Action taken
         -Current status
• Analyzed quarterly reports for trends among vendors and reasons for non-renovation

Summary Analyses:

• Compared timing, action taken and status of:
    -March 31, 1999 quarterly report of non-renovated systems
    -NCUA vendor reviews
    -FFIEC vendor reviews
    -NCUA approved blanket waivers




                                                3
                                      Year 2000 Vendor Review




                                    OBSERVATIONS
NCUA has reported that substantially all federally insured credit union mission critical systems
were renovated by the NCUA testing milestone of June 30, 1999. All but 48 credit unions
reported that they had met the July 31, 1999 substantially implemented milestone date.

NCUA staff feel confident that the status of vendors is accurately reported due to the various
programs which were put in place by NCUA regarding ISV systems. These include:

1.   NCUA conducted on-site primary vendor reviews
2.   FFIEC vendor reviews
3.   NCUA examiner and regional office reporting of vendor problems
4.   Off-site contacts as needed for problem vendors
5.   Issuance of blanket waivers
6.   Credit union due diligence in testing vendor products



                                   NCUA along with a nationally known contractor reviewed 46
  NCUA Vendor Reviews              primary vendors accounting for approximately 86 percent of
credit union primary core systems. These reviews did not certify vendor Y2K compliance but did
include a review of the vendors’Y2K plans and processes. One review was performed in 1997,
44 were performed in 1998 and one was performed in 1999. All 46 vendors reviewed were rated
satisfactory.

We were provided copies of 30 reports. At the time of NCUA’s review, four of those vendors
were in the renovation stage, eight in testing and 18 were in the implementation stage or
completed implementation. The first 10 reviews indicated that all ten were in the renovation
process at the time of NCUA’s review. We reviewed 19 vendor reports. Although all reports
listed some considerations for vendors, 17 of those were not major concerns. We noted two
vendors which were only single person operations and had no formal testing plans. We
considered these to be major concerns. According to E&I, no follow-up vendor reviews have
been performed to date.

As of September 1999, the NCUA website had 20 executive summaries of reports listed and
referred the first 10 summary results to a distributed NCUA Letter to Credit Unions. This leaves
16 vendor review results unposted at a time when substantially all credit unions are reported to be
substantially implemented. This was due primarily to delays between E&I review of the reports
and receipt of vendor comments on the draft reports.




                                                 4
                                      Year 2000 Vendor Review




  FFIEC Vendor Reviews             We reviewed a listing of 158 FFIEC vendor review reports.
                                   We noted that four vendors had noted problems causing a
formal agreement with FFIEC and/or needs improvement or unsatisfactory rating. With each one
of these vendors, the AIC had conducted follow-up reviews. Two of these vendors are still under
written agreements with FFIEC as of October 13, 1999.

Since May 1999, the FFIEC has issued an additional 99 reports. E&I is still in the process of
distributing these reports.


  NCUA Approved              NCUA approved a total of 13 blanket waivers. Seven of these
                             waivers were approved retroactive to cover milestone dates that had
  Blanket Waivers
                             passed. NCUA approved these waivers to document action taken by
the agency.

NCUA contacted vendors, who were covered by a blanket waiver, for information regarding the
cause, status and plans on addressing the Y2K issue at hand. Nearly all of these waivers were due
to testing concerns, in that test results were not available at NCUA milestone dates. However,
one corporate credit union caused a blanket waiver to be issued due to slow system renovation as
it related to natural person credit unions. In this regard, the corporate credit union system was a
vendor system for client natural person credit unions. National and regional staff contacted the
corporate and the system has since been renovated, tested and implemented.

NCUA is able to determine how many credit unions are clients of particular vendors by reviewing
NCUA database information. The FFIEC provided listings of credit union clients for the vendors
which they reviewed. The listing of whether any particular vendor product is a critical system was
to be determined by the credit union. However, no national analysis was performed regarding
how many or which credit unions should have or could be expected to apply for a waiver under
the blanket authority. E&I stated the regions are responsible for such analysis, however, at least
four regions do not maintain vendor client lists.

   Credit Union             Our review of quarterly information reports for non-renovated
                            systems did not identify any major trends of any vendor not being
 Quarterly Reports
                            renovated. The substantial majority of non-renovated systems were
due to vendor system installation scheduling and system conversions.

As of March 31, 1999, there were 287 credit unions reported as not 100 percent renovated.
However, as of September 30, 1999 all credit unions reported being 100 percent renovated.




                                                5
                                     Year 2000 Vendor Review




                     MATTERS FOR CONSIDERATION

Since NCUA has reported that 99.97 percent of all federally insured credit unions were fully
implemented as of September 30, 1999, we offer no substantial recommendations. However, we
encourage the following:

• Continue to post NCUA vendor reports to the NCUA website and distribute appropriately.
• Continue to distribute FFIEC reports, as appropriate
• As new vendor problems arise, if any, promptly notify affected regions, state regulators and
  client credit unions




                                               6
